<html>
<title> - OUR GREATEST GENERATION: CONTINUING A LIFETIME OF SERVICE</title>
<body><pre>[Senate Hearing 107-145]
[From the U.S. Government Printing Office]



                                                        S. Hrg. 107-145

                        OUR GREATEST GENERATION:
                    CONTINUING A LIFETIME OF SERVICE

=======================================================================

                                HEARING

                               before the

                       SPECIAL COMMITTEE ON AGING
                          UNITED STATES SENATE

                      ONE HUNDRED SEVENTH CONGRESS

                             FIRST SESSION

                               __________

                            INDIANAPOLIS, IN

                               __________

                             AUGUST 9, 2001

                               __________

                           Serial No. 107-12

         Printed for the use of the Special Committee on Aging


                  U.S. GOVERNMENT PRINTING OFFICE
75-462                     WASHINGTON : 2001

____________________________________________________________________________
For Sale by the Superintendent of Documents, U.S. Government Printing Office
Internet: bookstore.gpr.gov  Phone: toll free (866) 512-1800; (202) 512�091800  
Fax: (202) 512�092250 Mail: Stop SSOP, Washington, DC 20402�090001


                       SPECIAL COMMITTEE ON AGING

                  JOHN B. BREAUX, Louisiana, Chairman
HARRY REID, Nevada                   LARRY CRAIG, Idaho, Ranking Member
HERB KOHL, Wisconsin                 CONRAD BURNS, Montana
JAMES M. JEFFORDS, Vermont           RICHARD SHELBY, Alabama
RUSSELL D. FEINGOLD, Wisconsin       RICK SANTORUM, Pennsylvania
RON WYDEN, Oregon                    SUSAN COLLINS, Maine
BLANCHE L. LINCOLN, Arkansas         MIKE ENZI, Wyoming
EVAN BAYH, Indiana                   TIM HUTCHINSON, Arkansas
THOMAS R. CARPER, Delaware           PETER G. FITZGERALD, Illinois
DEBBIE STABENOW, Michigan            JOHN ENSIGN, Nevada
JEAN CARNAHAN, Missouri              CHUCK HAGEL, Nebraska
                    Michelle Easton, Staff Director
               Lupe Wissel, Ranking Member Staff Director

                                  (ii)

  


                            C O N T E N T S

                              ----------                              
                                                                   Page
Opening Statement of Senator Evan Bayh...........................     1

                                Panel I

Estella Smith, volunteer, Senior Companion Program, Sponsored by 
  Catholic Charities and Faith-Based Organizations...............     6
Ellen Brown, Project Director, Senior Companion Program..........     8
Gequetta ``Grandma Jo'' Littrell, Foster Grandparent Program; 
  accompanied by Caleb...........................................     9
Marilyn Morin, Director, Foster Grandparent Program, Columbus, IN    11
David Knight, volunteer, Retired and Seniors Volunteer Program...    14
Ceil Sperzel, Director, RSVP of South Central Indiana, Interfaith 
  Community Council, New Albany, IN..............................    17
Judge Webster Brewer, volunteer, Big Brothers Program............    21

                                Panel II

Alan Solomont, member, Board of Directors, Corporation for 
  National Service; accompanied by Les Lenkowsky and Tess 
  Scannell, Acting Director, National Senior Service Corps.......    24
Marc Freedman, President, Civic Ventures and Author..............    27
Kenneth B. Smith, AARP Board of Directors........................    30
James L. Perry, Associate Dean and Chancellors' Professor of 
  Public and Environmental Affairs, Indiana University-Purdue 
  University Indianapolis........................................    33

                                 (iii)

  

 
       OUR GREATEST GENERATION: CONTINUING A LIFETIME OF SERVICE

                              ----------                              --



                        THURSDAY, AUGUST 9, 2001

                                       U.S. Senate,
                                Special Committee on Aging,
                                                  Indianapolis, IN.
    The committee met pursuant to notice, at 2:16 p.m., in the 
Union Federal Southwest Pavilion, Indiana State Fair Grounds, 
Indianapolis, IN. Hon. Evan Bayh presiding.
    Present: Senator Bayh.

             OPENING STATEMENT OF SENATOR EVAN BAYH

    Senator Bayh. If I could go ahead and call this special 
meeting of the United States Committee on Aging to order and 
welcome all of you, I'd like to thank all of you for being here 
today. I'd like to think that you're here because of the 
importance of the subject matter and your willingness to share 
a few thoughts with me. I also realize this is one of the few 
air conditioned buildings at the fair, and I'm sure that has 
something to do with it as well.
    So whatever the cause or the reason, I'm glad you're with 
us. This is an important subject.
    It's the third time I've been privileged to have hearings 
of the Special Committee on Aging here at the state fair on 
Senior's Day, and it's a tradition I hope to continue as long 
as I am privileged to serve on the committee.
    I would like to thank everyone here at the state fair who's 
helped to bring us together and make this facility available 
starting with Bill Stinson right on down.
    Geneva Shedd has been so helpful. She's going to serve as a 
moderator a little bit later on when we get to the question and 
answer part of the program.
    And I've had a good opportunity to see some friends. I saw 
Mary Jane Phillippe out there in the audience--there she is--a 
little bit earlier when I was here with Susan and the boys.
    And by the way, I apologize if I'm looking a little worse 
for the wear. I went in and put on a fresh shirt. I was with my 
two 6-year-old boys out there on the midway, and made the 
mistake of going on some of the rides with them after eating 
lunch. So it was, with the heat and everything else, suffice it 
to say, quite an experience. They've got more energy these days 
than their father it seems. So in any event, it's good to be 
back with all of you.
    Just one quick note about last year's hearing. We were very 
successful. The testimony that we had submitted here at the 
hearing was very convincing to the U.S. Senate. And it's not 
very often you can see a hearing like this translated into 
action, but we were fortunate to get a million dollars 
appropriated for fraud prevention efforts to the TRIADS across 
the country.
    We lose $14 billion annually of fraud perpetrated against 
seniors--let me interrupt here. I have the stars of the family 
here.
    Dear, you want to say hello to everybody?
    Susan Bayh. Hi.
    Senator Bayh. Beau, you want to say hello?
    I can't believe they've still got any energy left.
    Say good-bye to everybody, boys.
    I can't believe they're still running after the morning we 
put in. Ah, to be 6 years old again.
    In any event, we were successful in getting a million 
dollars appropriated to combat senior fraud. We lose about 
almost $15 million annually--particularly some of these 
unscrupulous telemarketers who target senior citizens and try 
and take the value from people's homes, try and take their life 
savings. It's really one of the most horrendous crimes that can 
be perpetrated against unsuspecting people who have worked 
hard, saved their money, are looking forward to retirement, 
then have one of these shysters come along and take it away 
from them.
    Here in Indiana alone last year we lost $80 million to this 
kind of fraud. But because of the testimony last year, we've 
started a national clearinghouse. We have money going to the 
TRIADS.
    And it's not very often--this is actually a copy of the law 
that was signed into law by President Clinton, last year after 
our hearings. And so you can see that we've actually done some 
good. And I hope that the hearing we're having today will lead 
to some similar results.
    We have Les Lenkowsky with us today. Les, why don't you 
just stand and be recognized.
    Mr. Lenkowsky has been nominated by President Bush to be 
the head of the National Corporation for Public Service.
    And while he hasn't been confirmed yet, Les, I want you to 
know you can count on at least one vote in the U.S. Senate. 
That will be me. I look forward to supporting you.
    Why don't we go ahead and get on with the program. We're 
highlighting today the importance of public service. And 
particularly as this poster over here indicates, ``The greatest 
generation continues to serve.''
    You know, seniors have contributed so much to our society 
already, and have so much to continue to offer. We'd like to 
make it as easy as possible in providing as productive ways as 
possible for seniors to continue to serve our community as we 
possibly can.
    It's not only good for the seniors--you get the 
satisfaction of helping others--but it's good for the children, 
one of whom we have with us here today. It's good for the other 
seniors with the long-term care that can be provided. It's good 
for all of the services that can be provided to the community. 
And ultimately it's also good for the taxpayers.
    I'm going to be mentioning in just a few moments the kind 
of leverage that we have. For every dollar invested in service 
by seniors, we get many, many times that amount of money in 
benefits and value back to the community in terms of 
educational services, care services, other services. And that's 
money that otherwise the taxpayers would be having to put up.
    So it's good for everyone, and that's why we're here today.
    Senator McCain and I will be offering legislation later 
this year, Senator John McCain from Arizona. It's going to be 
bipartisan, obviously.
    He's focusing in particular in a military service 
component. We want to create a track where those who want to 
defend our Nation by entering the armed services can do so, and 
then when they leave the armed services, if they're so 
inclined, can pursue a career and a lifetime of public service.
    That's a good idea, yes. Thank you, ma'am. I'll tell 
Senator McCain that you're supportive. And I appreciate that, 
too.
    I'm focusing on the senior service component. And together 
I hope that we can build upon the great track record of the 
National Corporation for Public Service and expand the efforts, 
deepen the efforts, and really make this an integral part of 
the fabric of American society.
    There are many avenues of service available under the 
Corporation for National Service. We have the National Senior 
Service Corps, and this includes the Senior Companion Program 
to provide long-term care services for other seniors; the 
Foster Grandparent Program designed to provide assistance to 
at-risk youth, and the Retired and Senior Volunteer Program 
which provides services in many areas including the environment 
and others across Indiana and across the country.
    Today we have more that 9,500 Hoosier volunteers through 
the National Senior Service Corps, and their services 
contribute over $29 million to Hoosier communities each and 
every year. That's more  than  9500  Hoosier  seniors  
volunteering  with  a value of almost $30 million each and 
every year to the State of Indiana. So you can see it is a 
major, major benefit to our State and something that we would 
like to see expanded both here and abroad.
    For example, seniors are helping to combat the long-term 
care crisis by providing relief services for care givers, some 
respite care, and assistance with daily activities.
    Last year, nationally, over a total of four million hours 
were provided to frail adults so they could remain independent 
in their homes by the senior companion volunteers. The value of 
services provided by the Senior Companion Program is estimated 
at $185 million, and that's a rate of return on the taxpayers' 
investment of 5 to 1. I can think of very few investments we 
make as a country that generate that kind of return of 5 to 1 
return.
    In Indiana our two senior companion programs, we have 187 
volunteers providing services valued at $2.5 million, a rate of 
return of three times the Federal investment. So it's good for 
the Federal Government; it's good for the State; it's good for 
seniors; it's good for all of us.
    I am going to skip over most of my prepared remarks. I have 
got a lot of facts and figures here. For those who are 
interested, I would be happy to get into it.
    And at the end of this, we are going to have as much time 
as we can for questions and answers. For those of you if we 
don't have time to get to your questions, please give us on the 
forms--I think they're passing out, Sohini--please give us your 
address, your phone number. We will get back to you. If we 
can't answer your question here orally today, we will get back 
to you with an answer to your question in writing, Geneva, so I 
want to make sure that if you can on the materials, please give 
us your address so that we can respond.
    There are several barriers or challenges that remain. Part 
of what our proposal will help to accomplish is to make clear 
that all seniors 55 and older are welcome and encouraged to 
volunteer. Currently, the age limit is occasionally somewhat 
more restrictive than that.
    We'd like to provide seniors with more incentives to 
volunteer such as increasing the availability of stipends to 
low income seniors to 200 percent of the poverty level, and 
making volunteer hours more flexible. And we'd like to provide 
seniors with additional training in areas such as physical and 
mental health, nutrition, child psychology, looking for signs 
of child abuse, and the provision of long-term care, and other 
educational services that will be good for the community and 
that seniors would be readily able to contribute.
    We would like to create a demonstration project to fund 
innovative projects that do not traditionally recruit seniors 
but respond to an unmet social need. And I think we are going 
to hear a little bit later this afternoon about the Big 
Brothers Program, Sohini, which has done great, great work in 
that area and would qualify for this type of demonstration 
grant.
    Finally we would like the legislation to reauthorize the 
programs for funding levels that are considered to be 
necessary, which from my point of view would consider a 
significant increase. We don't have a particular appropriation 
number today, but I'd frankly like to see us do substantially 
better than we have done to date.
    I believe there is a chart below me just over here. I can't 
see it, but on there is a 1-800 number. And I hope our friends 
from the press who are with us today will focus on that 1-800 
number.
    For those of you in the audience who are interested in 
volunteering, this is a national number; it is a clearing 
house. If you feel that  you  have  some  talent  and  some  
time  that  you  would  like to dedicate, you can please call 
this number 1-800-424-8867, or visit the National Senior 
Service Corps web address at www.seniorcorps that's C-O-R-P-S 
www.seniorcorps.org.
    Either way we'd be delighted to get you involved with our 
volunteer efforts. And again, I want to thank you for your 
presence today.
    Having said all of that, let's get right to our panels. And 
I want to thank our panelists for taking their time to share 
with us their experiences today. You know, I get to get up here 
and give--I suppose it would qualify as a small speech, but 
these are the folks who are really providing the services and 
making a difference in our communities each and every day. And 
I hope it can serve as a source of inspiration to all of us 
here to get out and do likewise.
    First we're going to hear from the Senior Companion 
Program, the program designed to help with long-term care 
needs.
    Estella? Where is Estella? Estella, thank you for joining 
us today. I didn't get down there to shake your hand before we 
started, but I want to thank you.
    Estella is our volunteer for the program and has been 
helping two women at least twice a week, Rose, who is here with 
her today, and another woman who has Alzheimer's.
    Where is Rose, Estella? Rose, thank you for coming today.
    Estella is 80 years old and takes care of Rose who is going 
to be 90 in September.
    The Senior Companion Program is sponsored by Catholic 
charities and faith-based organizations that have actually 
sponsored several of the volunteer programs funded through the 
Corporation for National Service.
    So, Estella, I am going to look forward to hearing from 
you. I will start with you first after I have introduced the 
other three panelists on our first panel.
    We will then hear from the Foster Grandparent Program 
represented by--and I'm going to refer to her as Grandma Jo 
Littrell. Is Grandma Jo--is that OK if I call you Grandma Jo?
    Ms. Littrell. That's fine.
    Senator Bayh. OK. Thank you.
    She serves as a grandmother for Caleb who is 8 years old. 
Caleb is with us here today. She tutors Caleb in reading, and 
as a result of their relationship and time together, Caleb's 
reading has improved dramatically.
    So thank you, Grandma.
    Caleb, congratulations to you. I spend a lot of time 
reading with my boys, and I hope you enjoy it as much as they 
do.
    Next we are going to hear from David Knight. He is a 
volunteer from the Retired and Seniors Volunteer Program. And 
David is going to share with us his work about the computer and 
technology training he was provided with so he could maintain 
contact with his family and continue earning money with his at-
home business.
    So where is David? David, thank you for being here. We are 
looking forward to hearing from you third.
    And then finally in our first panel from the Big Brothers 
Program, we have Judge Web Brewer, someone I have known for 
many, many years.
    Judge, I am grateful to you for your service to the 
community and today for your words about the Big Brothers 
Program.
    Judge  Brewer  has been  volunteering  for  2 years  and  
has previously tutored young children. This coming fall he will 
be volunteering in a program that has not traditionally 
recruited senior volunteers. It is called, ``Talks my father 
never had with me.'' He will be able to mentor young males from 
single parent homes.
    And this is increasingly important in many of our urban 
areas where frankly young men bring children into the world and 
then just walk away from their responsibilities, Judge, and 
it's important we try and fill that gap in those young men's 
lives and give them the kind of role models they can look up 
to. And so I am grateful to you for participating in that 
effort.
    So let's give a big round of applause to our panelists and 
thank them for being with us today.
    And, Estella, why don't we begin with you. And you can tell 
us about the service, the volunteer service, that you provide 
with Rose and others.

    STATEMENT OF ESTELLA SMITH, VOLUNTEER, SENIOR COMPANION 
   PROGRAM, SPONSORED BY CATHOLIC CHARITIES AND FAITH-BASED 
                         ORGANIZATIONS

    Ms. Smith. I started with Rose in 1995. When I first went 
to her, she would not talk, she would not eat. She would lie in 
bed most of the time. But one day I went, and she was up and 
dressed and ready to tell me what she wanted to eat. And she 
started talking, and she's been talking ever since.
    I take her to all of her doctor's appointments, her dentist 
appointments, her hairdresser, take her out it eat, and she's 
having a good time. She's not sitting home pining away because 
she's 90 years old. She lives alone, and she's getting along 
well.
    Now she tells me that I am part of her family. Every year 
they have a birthday party for her, and she will not take no 
for an answer if I don't come. So I have to be there.
    And I think that this program is very good for people who 
are living alone because these things they could not do if they 
didn't have someone to help them. Many times they go in the 
doctor's office and they move around so much, when they come 
out of that office they are distraught and they don't know 
which way they want to go. So they need someone to guide them 
and to help them.
    I also have an Alzheimer's patient as a client of mine, and 
I'm learning how to work with her. She will not go out of the 
house. She will not do anything. But whenever she does decide 
something, then I work with her. And most of the time she just 
want me to fix her something to eat.
    And she's in the first stage, the stage now that she's 
accusing everyone of taking her things which are still there, 
and she can look at them, but she doesn't recognize they are 
hers.
    And I think this program is very good because we do make a 
difference.
    [The prepared statement of Ms. Smith follows:]
    [GRAPHIC] [TIFF OMITTED] T5462.001
    
    Senator Bayh. I would like to thank Ellen Brown for being 
here. She is the project director that helps make this possible 
for Estella.
    Ellen, is there anything you'd like to add to what Estella 
had to say?

 STATEMENT OF ELLEN BROWN, PROJECT DIRECTOR, SENIOR COMPANION 
                            PROGRAM

    Ms. Brown. I just wanted to let you know that we have 
presently 109 companions such as Estella serving in the greater 
Indianapolis area, and they serve 164 clients.
    However, we have a waiting list of over 200 people, people 
who are as deserving as Rose who need the help, who need the 
care that are provided by these generous, wonderful people that 
we call companions.
    And I hope that there's some way that we could understand 
their living circumstances, because they all live on a very 
fixed budget. And although the stipend helps, an increase in 
the stipend would make a big difference in helping them to meet 
their own needs such as their prescription drugs which are 
escalating, and fuel and food costs.
    These are the kinds of the things that we appreciate 
because they come to us with such a big heart. And as she said 
they create a family. And we are very grateful that we have 
them to serve the community.
    Thank you, sir.
    Senator Bayh. Thank you, Ellen.
    I'm going to ask each of our panelists a quick question 
when they're done testifying rather than save them all for the 
end. I think it might flow a little bit better that way.
    Estella, let me ask you, this is so marvelous, the work 
that you do. Can you tell everyone here, and I think 
particularly for folks who aren't here but might read about 
this or see this tonight on the news, why do you do it? You 
must get a lot of satisfaction from this. But tell us why do 
you volunteer and help Rose?
    Ms. Smith. I volunteered--I had become a widow, and I was 
lonely and devastated, and I needed something to keep me going. 
And I started with this program, and it has been a blessing to 
me.
    Senator Bayh. Grandma Jo, we're going to go with you next. 
But, Marilyn, I skipped over you. You're the project director, 
and I'd like to thank you for making her service possible.
    Grandma Jo, why don't you share your words with us. And I'm 
sure we'd also enjoy hearing from Caleb.

     STATEMENT OF GEQUETTA ``GRANDMA JO'' LITTRELL, FOSTER 
           GRANDPARENT PROGRAM; ACCOMPANIED BY CALEB

    Ms. Littrell. By joining the Foster Grandparent Program I 
fulfilled my dream of being a community volunteer.
    After my training, I started at Lincoln Elementary School 
in August of 2000. Marilyn Morin approached me about a new 
reading program called Early Steps at Clifty Creek Elementary--
--
    Senator Bayh. Can we move that mike a little bit closer 
so--there we go.
    Ms. Littrell [continuing.] Which was closer to my home and 
asked if I would help with the program.
    Being able to help children succeed and achieve really 
makes my day, every day. Children challenge you, and to see 
them make better grades and learn more makes me feel really 
great. This gives me a wonderful feeling of accomplishment.
    Caleb Allen is one of the children I worked with this year. 
His story is a real success story. Caleb's grades went up after 
I worked with him, and he now reads so well. He scored 355 
points on his final reading test in May versus 139 points on 
the test in August. His reading is now at the right grade 
level, and he reads with 98 percent accuracy. His teachers have 
said he will not need any further help in third grade. Caleb is 
on the right track to succeeding in school.
    The Foster Grandparent Program gives people a chance to get 
out and to make a difference in the community. Foster 
Grandparents love to give hugs, and we love all of the hugs we 
receive every day from the children.
    Senator Bayh. Marilyn, would you like to add a word? And 
then we'll hear from Caleb.
    [The prepared statement of Ms. Littrell follows:]

    [GRAPHIC] [TIFF OMITTED] T5462.002
    
   STATEMENT OF MARILYN MORIN, DIRECTOR, FOSTER GRANDPARENT 
                     PROGRAM, COLUMBUS, IN

    Ms. Morin. Grandma Jo is typical of the 92 grandparents we 
have. We cover Bartholomew, Brown, Decatur, Jackson, and 
Jennings County, and we have 30 schools, abused children 
shelters, teen pregnancy programs, and Head Starts. Every one 
of the facilities we serve ask for more grandparents. That 
seems to be the No. 1 need.
    We all know, and I think our grandparents are very aware, 
when you touch tomorrow, you touch a child. So we would love to 
see this program expand so we can touch more children to better 
tomorrow.
    I think we all know that our Nation's history isn't in this 
room--or our future. Our future is in the classroom, and it is 
in the abused children shelter. And these children do need more 
help. So expanding this program would really help.
    Thank you.
    [The prepared statement of Ms. Morin follows:]

    [GRAPHIC] [TIFF OMITTED] T5462.003
    
    Senator Bayh. Thank you, Marilyn.
    We, I think it's safe to say this may be the youngest 
person to testify before the Senate Committee on Aging, but 
what he has to say is equally or perhaps more important than 
most of the others.
    So, Caleb, we'd love to hear from you.
    Caleb Allen. I'm 8 years old, and I go to Clifty Creek 
Elementary, and I love my foster grandparent, Grandma Jo. She 
has helped me a lot this year. I really look forward to seeing 
her every day. She sits by me and we read and did spelling and 
wrote together.
    She gives me hugs and tells me I am doing really good. She 
has really helped me learn to read better this year. I think it 
is really great to have a school grandma. I am glad I had a 
grandma with me this year. I will miss her next year. I wish 
all the kids could have foster grandparents.
    Senator Bayh. Caleb, that was very, very good. Thank you. 
Thank you very much.
    Grandma Jo, let me just say, just as Estella, one of the 
most pressing challenges we have is the need to help with long-
term care for seniors, one of the most accurate predictors--the 
single most accurate predictor of how our children do in school 
is whether there's an adult actively involved with that child's 
education and the home, with the family.
    And where a parent can't be involved, a grandparent can. 
And so if you would just maybe take that microphone and just 
share with us one more time, you recited how his reading scores 
have gone up and that kind of thing.
    Ms. Littrell. OK.
    Senator Bayh. Just give us your thoughts about how Caleb is 
learning, his reading ability has improved because of the kind 
of special attention he's gotten.
    Ms. Littrell. Caleb has really been a real good student. At 
first he was kind of shy, and I had to get to know him; he had 
to get to know me. My first intentions is to get the trust of 
each child and to learn what they are interested in, and then 
we start to work. And this helps me to understand each one.
    And his score was 355 points at the end of May, and it went 
up from 139 points on the test in August which was 98 percent 
reading accuracy.
    Senator Bayh. Caleb, do you like reading with Grandma Jo? 
[Caleb Allen nodded yes.]
    Good. Good. Thank you.
    Grandma Jo, thank you.
    David, why don't you share with us the services and 
training you've been able to get.
    Ceil, you want to share some thoughts, too?
    Ceil, excuse me, Sperzel is the program director. Which of 
you would like to begin? Here, David, grab ahold of this 
microphone here. Tell us about the services you've received 
from the program and the difference it's made for you.

   STATEMENT OF DAVID KNIGHT, VOLUNTEER, RETIRED AND SENIORS 
                       VOLUNTEER PROGRAM

    Mr. Knight. The difference it has made for me--in 1993 I 
retired. I had two massive heart attacks back to back and a 
quadruple bypass at Jewish Hospital.
    I started a home-based business last year. Things started 
jumping. I started selling a hot weight loss product where 
people in the United States was losing ten to twenty pounds a 
month. Their health was improving tremendous.
    I knew I needed a computer. I had to have a computer. I 
came home one afternoon, there was a message on my door. 
``You're eligible for free computer classes.''
    I drove my car two blocks, signed up for the free classes. 
They were not wall-to-wall classes. These were superb, 
professional training classes on a one-to-one basis.
    I took the classes, and I'm so glad I did. I've benefited 
greatly. I get on-line today. I order products on-line. I know 
my conference calls, where they're all over the United States. 
I view my downline. I'm updated on all price listings of 
products. It's just great. One of the greatest benefits I 
received is I'm able to help other people.
    I went to our national director's home, taught her a three-
way system how to find people no matter where all over the 
United States whether they're living or deceased. What a great 
benefit.
    Thanks, Lifespan, and thanks to the Indiana State. Thanks 
so much.
    Senator Bayh. Thank you, David.
    [The prepared statement of Mr. Knight follows:]

    [GRAPHIC] [TIFF OMITTED] T5462.004
    
    [GRAPHIC] [TIFF OMITTED] T5462.005
    
  STATEMENT OF CEIL SPERZEL, DIRECTOR, RSVP OF SOUTH CENTRAL 
     INDIANA, INTERFAITH COMMUNITY COUNCIL, NEW ALBANY, IN

    Ms. Sperzel. I'm the RSVP Director for four counties in the 
southern part of the State, and we have several programs in 
addition to placing volunteers in all of the other nonprofits 
and healthcare agencies in our area. And David is a recipient 
of services of one of those programs. And as you can imagine, 
there are thousands of people who are recipients.
    In Indiana, there are over 9,000 RSVP volunteers who 
contributed 1.4 million hours of service last year and every 
year to their neighbors in need, not just in a technology 
training program, but in all sorts of helping services.
    RSVP volunteers deliver meals, they push wheelchairs, they 
raise money, they fix houses, they sort books. I could go on 
forever but obviously I won't.
    But the question is why is that important. Why is it 
important that these people do these things? And the answer is 
because most of it would not happen if they did not.
    Last week when seven senior homeowners called me and said, 
``My air conditioning is broken in this heat, and I cannot 
afford to fix it,'' I wouldn't have had anybody to call if not 
for our senior volunteers.
    The last week of July when 98 families came to our agency's 
food pantry for help, we wouldn't have had anybody to call if 
the volunteers hadn't packaged that food.
    In this entire spring semester of the year, retired senior 
volunteers helped in the special ed classroom at one of our 
local high schools in North Harrison 7 hours a day, 5 days a 
week. There would have been nobody to do that if it hadn't been 
for those retired senior volunteers.
     We need our retired people to give our country their time, 
their experience, and their talents, and otherwise nobody else 
is going to do it. They have all that skill for us, and we need 
it.
    And the other part of the bottom line is that the retired 
senior volunteers are served themselves. As Estella so 
eloquently told us, you feel better and you are healthier and 
you live longer if you have something useful to do.
    I was asked in this testimony to tell how to get more 
seniors into senior service, and the bottom line of getting 
people to do anything is--80 percent of people do so because 
they were asked personally. And only 36 of the 92 counties in 
Indiana are covered by RSVPs, and even fewer in the SCPs and 
FGPs.
    And so I would say to you we would ask Congress to allocate 
more resources for more programs.
    [The prepared statement of Ms. Sperzel follows:]

    [GRAPHIC] [TIFF OMITTED] T5462.006
    
    [GRAPHIC] [TIFF OMITTED] T5462.007
    
    [GRAPHIC] [TIFF OMITTED] T5462.008
    
    Senator Bayh. And if we do, you'll put them to good use?
    Ms. Sperzel. Absolutely.
    Senator Bayh. Very good. Thank you, Ceil. David, thank you.
    Judge, tell us about the Big Brothers. That's a great 
program, and it's great of you to volunteer. Tell us what kind 
of difference it's making.

  STATEMENT OF JUDGE WEBSTER BREWER, VOLUNTEER, BIG BROTHERS 
                            PROGRAM

    Judge Brewer. I have been volunteering in the Big Brothers 
Program and tutoring in School 43. I've tutored two separate 
kids once a week for 1 hour. We've made a tremendous difference 
in the lives of these kids. I'm just one of a hundred 
volunteers.
    But I come to this program kind of naturally. I started out 
my career in the juvenile court. I went on to the Federal 
Bureau of Prisons. I went over to the Federal court as a 
Federal probation officer. Elected judge in 1974, served for 25 
years.
    One thing I determined in my career is that youngsters who 
don't learn to read prior to the fifth grade are likely to 
become dropouts, and also a lot of social problems of which 
you're aware.
    My wife was an educator for 35 years. A number of years ago 
when our senator was Governor, he spoke to a number of 
teachers. My wife was in the audience; I was not. And one thing 
our Governor, and senator now, said was that you can determine 
the number of prisons you have to build by the number of people 
in the third grade. That stuck with me then.
    So I'm about the business of trying to help youngsters to 
read. And come the fall, we'll be working a new program working 
with mentoring four or five youngsters who don't have fathers 
in the home.
    The two factors that I have discovered in my career that 
matters most in terms of making the person a worthwhile citizen 
is learning to read and having a male mentor.
    I lost my dad last year at the age of 89 years old, and 
Reverend Hasburg once said the best thing a father can do for 
his children is to stay with their mother. And I remember 
Father Hasburg saying that years and years ago.
    But my experience has taught me that we must work one-on-
one with children. It's a very impressive thing to do. And 
there's something about just any kind of special attention. I'm 
convinced that you don't have to have a degree, that you don't 
have to be an expert in that area, but having that youngster 
read to you and to have his face light up when you respond to 
him, I think is a great thing in helping that youngster learn 
to do.
    When I was in the third grade, I simply couldn't get 
fractions, and I thought I was the dumbest kid in the school. 
We had a member of the family who was in education. My mother 
asked her to tutor me. I found out that repetition is what 
learning's all about. And it was through her and the flash 
cards in determining the difference between one-third and one-
fourth and one-fifth, and all those kinds of things, that got 
me through fractions.
    Had I not gotten through fractions, I would have 
internalized the fact that I'm a dumb kid and I'm a mentor.
    This has been a worthwhile experience for me. I didn't do 
it because I was bored or didn't have nothing to do. Hell, I've 
got more to do than I know what to do with. But it just comes 
as a natural to me that doing--just helping one person, I'm 
just convinced that if all of us just touch the life of one 
person, we can make this a much better world.
    And they told me to limit my comments to 5 minutes, there's 
a guy over there with a light who blows a horn when you get 
beyond that, so I will cease my comments.
    It's such a pleasure being here, and I encourage you if 
you're not a volunteer, get on board. It's fun.
    Senator Bayh. Thank you. Judge, thank you very much.
    He mentioned something that's true. Back when I first 
became Governor, we had an overcrowding crisis in our prisons, 
and I brought in a national expert to help us plan for the 
capacity we'd need in our prisons.
    And he put together a big equation--I see Joe Smith sitting 
here--he put together a big equation, and you look at about ten 
or fifteen different variables. But the single most accurate 
predictor of how many people you're going to need to lock up in 
prison fifteen years later are the number of at-risk children 
in third grade.
    We look at 9 year olds and the circumstances in which 
they're being raised to predict how many inmates there will be 
fifteen years later.
    And so if there was ever an argument, Judge, for early 
intervention, reaching out to young men like you've done, like 
Grandma Jo has done, that's a very good one.
    And it's a symptom of a broader problem. And I won't give 
another speech here, but just suffice it to say there has been 
a growing trend in our society for the last 15 years or so of 
particularly very young men who bring children into the world 
and then just walk away leaving the mothers and the taxpayers 
to try and pick up the pieces. And the consequences to the 
children and to society are very, very adverse.
    And so if we can get Big Brothers involved, if we can get 
people like Judge Web Brewer involved to try and fill that gap, 
I mean, hopefully we can convince more of these young men to do 
right by their children, to do right by the mothers of their 
children as Father Hasburg would say, and as the judge 
mentioned, that's the ideal solution.
    But while we're still working on that, Big Brothers and 
senior volunteers can really make a big, big difference in our 
young children's lives. I'll just read you just a couple of the 
statistics.
    A child growing up without a responsible male presence--
mothers are doing a great job. They are just performing heroic 
work. The men need to do better.
    Where there's no responsible male figure in the young 
child's life, they're five times more likely to live in poverty 
when the fathers run off, twice as likely to commit a crime, 
twice as likely to drop out of school, twice as likely to be 
abused, much more likely to commit suicide, over twice as 
likely to be involved with alcohol or drugs, and if a young 
girl, much more likely to become pregnant as a teenager.
    Those are obviously very serious social problems, and we 
need to try and fill that gap in many of our young people's 
lives, and Big Brothers and this volunteer effort is doing a 
good work at that.
    Web, I wish we could clone you and spread you around.
    I was interviewed out here by the media earlier. I said I'm 
opposed to human cloning, and I am, but in Judge Brewer's case 
we might make an exception.
    You're doing such good work.
    So the last thing I'll say, and then I am going to thank 
our panel and ask the second panel to come up, you know, very 
often I'm asked--they say, ``Well, Senator, what is this public 
service? What is this volunteering all about? That sounds kind 
of general. That sounds kind of vague. Does it really make a 
difference? Do these dollars really go to something 
important?'' Well, ladies and gentlemen, you're seeing it right 
here. What they do, they go to Estella to allow her to help 
provide long-term care to Rose and another woman. That's making 
a real tangible difference for Rose and for the society and for 
our taxpayers.
    They go to Grandma Jo to help Caleb and other young people, 
and that's making a big, big difference and improving the 
quality of education.
    They go to help David get the kind of skills he needs to be 
independent and work out of his home and to help others. That's 
making an important difference in his community.
    And they go to help the Big Brothers and people like Judge 
Brewer make an important contribution in the lives of young 
people without whom they might grow up to become juvenile 
delinquents and end up in those prisons we were just talking 
about. Those are real tangible meaningful contributions to 
bettering our society. That's what volunteering is really all 
about.
    And I want to thank our panel today for helping us shine 
the light on the kind of difference you make for our State. I'm 
very, very proud of you all. You're really the kind of heroes 
that we ought to applaud. And let's do that right now. Thank 
you all for being with me today.
    Senator Bayh. All right. If I could have everyone's 
attention, we have our second group of panelists with us today. 
And I want to thank each of these gentlemen for their time. I 
know they're very busy and could be doing many, many other 
things.
    That applies to all of them, but especially Alan Solomont 
who is all the way down at the left in terms of the audience. 
He's come all the way from Boston to be with us here today.
    Alan has been a long time advocate of public service. He's 
one of the most philanthropic and dedicated public servants I 
know. And I want to personally thank him for making the trip to 
be with us today.
    Alan is a member of the Corporation of National Service's 
Board of Directors, and he's going to provide us with updates 
of the corporation's activities and suggestions for what we can 
do to expand upon them.
    Next, we're going to hear from Marc Freedman, president of 
Civic Ventures and author of the book Prime Time: How baby 
boomers will revolutionize retirement and transform America.
    Marc, thank you for being with us today.
    Marc's going to provide some data on the positive outcomes 
associated with senior service and his thoughts on ways to 
better utilize the programs.
    Kenneth Smith from the AARP Board of Directors is with us 
and will inform us about the AARP senior service activities and 
how the AARP plans to advance and promote senior service.
    Kenneth, thank you very much. AARP does such good work. 
We're looking forward to hearing from you.
    And last, but by no means least, we've got James Perry with 
us.
    Thank you for being with us, Dean. Associate Dean of the 
School of Public and Environmental Affairs at IUPUI here in 
Indianapolis. He's going to provide us with concrete data that 
show the importance of senior service both for the senior and 
for the community at large.
    Dr. Perry, thank you very much.
    Alan, why don't we begin with you. And again, I want to 
welcome you to our State.
    He's from Massachusetts, but I think it's fair to say, 
ladies and gentlemen, we've given him a warm Hoosier welcome 
here today at the State fair. So let's thank Alan Solomont for 
being with us.

    STATEMENT OF ALAN SOLOMONT, MEMBER, BOARD OF DIRECTORS, 
CORPORATION FOR NATIONAL AND COMMUNITY SERVICE, ACCOMPANIED BY 
  LES LENKOWSKY AND TESS SCANNELL, ACTING DIRECTOR, NATIONAL 
                      SENIOR SERVICE CORPS

    Mr. Solomont. Thank you very much, Senator. I'm delighted 
to be here with all of these wonderful examples of senior 
service. I'm also pleased to be here with two of my colleagues 
from the Corporation, Les Lenkowsky, who you recognized earlier 
and who is about to become the Corporations CEO, and also Tess 
Scannell who is the Acting Director of the National Senior 
Service Corps.
    I have had the pleasure of witnessing firsthand the 
benefits to communities when seniors are tapped to meet 
pressing social needs and the benefits to seniors themselves 
when they are actively engaged in serving their communities.
    But since we are here today to discuss the value of 
service, permit me to say what a great example you have set in 
the area of public service. Your career demonstrates the 
difference one person can make, and you teach us all a lesson 
about dedicating one's life to the common good.
    I was a great admirer of your father's courageous public 
service, and I'm honored to know his son and to acknowledge 
your contributions.
    Senator Bayh. Thank you, Alan.
    Mr. Solomont. Senior service in the National Senior Service 
Corps are of special interest to me on both a professional and 
a personal level. I am a businessman and an entrepreneur 
focused on developing innovative ways to provide health 
services and elder care to senior citizens.
    Although my business interests are mostly in New England, 
as you know, issues regarding healthcare and long-term care for 
the elderly are national.
    I've spent most of the last 25 years of my professional 
life caring for frail elders in nursing homes, assisted living 
facilities, and in the community. And although I describe 
myself as a businessman and an entrepreneur, I've always felt 
more comfortable in a room full of white hair than a room full 
of white shirts.
    In the late 1970's as the administrator of a nursing home 
in Massachusetts, I worked closely with the local Retired 
Senior Volunteer Program, RSVP, and I saw firsthand how 
important volunteers were to enhancing the quality of life for 
residents of that nursing home.
    RSVP is just one of the programs of the National Senior 
Service Corps administered by the Corporation for National and 
Community Service. The other programs are the Foster 
Grandparent Program, and the Senior Companion Program. Each of 
these valuable programs uses the power of senior service to 
address pressing community needs and brings comfort and support 
to people in our society who are frequently left behind.
    When I talk about people left behind, I mean the tens of 
thousands of special needs children like Caleb who receive the 
love, care, and support of a foster grandparent, or the 
thousands of frail elders like Rose and their caregivers who 
receive services of senior companions, a program that makes it 
possible for frail elders to stay independent in their own 
homes.
    And there are tens of thousands of community agencies and 
individuals that have benefited from the myriad of services 
provided by RSVP volunteers.
    Senator, you could not have picked a better time for this 
hearing. The Nation and the world's populations are aging at an 
unprecedented rate. Our generation, the baby boomers, the 
healthiest, wealthiest, and most highly educated generation in 
this country's history will soon be retiring. And we don't plan 
to spend our retirement years relaxing.
    Retiring baby boomers are starting new careers, enrolling 
in universities, learning new skills, and most of all taking 
what they have learned from their life's experiences and 
applying them to social causes.
    A 1999 survey conducted by Peter Hart for Civic Ventures 
found that older Americans are seeking volunteer activities 
that take advantage of their special skills rather than 
activities that merely fill time.
    As a Nation we should seize the experience, energy, and 
excitement that mark this generation of retirees. The key 
challenge for the future of the National Senior Service Corps 
will be to provide opportunities for this very special 
generation of seniors that will take advantage of their skills 
and all that they have to offer.
    I have provided you and the Committee with a copy of 
recommendations from the Corporation's Board of Directors which 
was sent to the President and the Congress earlier this year on 
the future of all of the Corporation's programs, including 
AmeriCorps, Senior Corps, and Learn and Serve America.
    We recommend that in order to make service an expectation 
for all people in later life, we must expand service 
opportunities for all senior citizens. We need to increase 
resources to expand options and incentives to attract a broader 
base of seniors, and we have to get organizations that have not 
previously used seniors to get involved with the National 
Senior Service Corps.
    We have to remove any barriers in our current programs and 
program structure that artificially limit the appeal of 
opportunities for senior involvement in Corporation programs. 
The Corporation for National and Community Service and the 
National Senior Service Corps are ready to make senior service 
meet the needs of the new century.
    It was delightful for me to come here from Boston today, 
and I'd be happy to answer any questions or provide you and 
your committee with any information that you desire.
    Thank you.
    Senator Bayh. Thank you, Alan. Let's express our 
appreciation.
    Alan, I just had two brief questions. I would like to thank 
you for your testimony. The first is in my opening remarks I 
shared some data about the return of the investment to the 
taxpayers that comes from our investment in service, that's 
senior service. Has that been your experience at the 
Corporation, that it's a good investment for the taxpayers in 
terms of the return of our dollars?
    Mr. Solomont. It gets  tremendous  leverage.  As you  said, 
 a return of 3 to 1, 5 to 1. If you just look at the Senior 
Companion Program and the benefit of providing seniors who are 
typically living alone, who with a little support can stay 
living in their own homes, not a burden on publicly financed 
programs, through the efforts of volunteers or volunteers who 
are paid a rather modest stipend, and you think of the 
thousands or the tens of thousands of frail seniors who are 
staying independent through that sharing and that caring, I 
don't know that you can find many better investments of our 
taxpayer dollars at a time when the need for long-term care is 
going to absolutely explode.
    Senator Bayh. It is costs that we avoid and the benefits we 
incur as a result of the investment.
    My second question is about incentives. What sort of 
incentives are ordinarily the sort of thing we'd look at to 
encourage seniors to get involved? What would be helpful?
    Mr. Solomont. Well, one of the great things that we have 
done is to make service opportunities available particularly to 
low income seniors. And we've done that by offering stipends, 
and modest as they may be, they target our programs to that 
population.
    I think at this point, given the huge need and opportunity 
for senior service, we also ought to be about removing barriers 
to service and expanding opportunity for senior service to all 
income groups.
    Not to lose the benefit of making this available to lower 
income seniors, but also to look to seniors like my 82-year-old 
mother who needs to get out of the house, who wants to be 
useful, and whose skills as a registered nurse could be put to 
good use in a program such as Senior Companions.
    Senator Bayh. No question. Thank you again, Alan.
    Mr. Solomont. Thank you, Senator.
    Senator Bayh. Mark Freedman, thank you for being with us. 
We're looking forward to your testimony.

   STATEMENT OF MARC FREEDMAN, PRESIDENT, CIVIC VENTURES AND 
                             AUTHOR

    Mr. Freedman. Thanks. It's a great pleasure. I wasn't 
exactly sure of that when I left San Francisco yesterday and it 
was 70 degrees with no humidity, but now I can tell you there's 
absolutely no place I would rather be than in Indianapolis.
    Senator Bayh. Welcome to the Midwest in August, Marc. 
[Laughter.]
    Mr. Freedman. Thank you. And thank you also for your 
leadership on this issue.
    As Alan Solomont suggested, the timing just could not be 
better. Right now this country is on the verge of a demographic 
revolution. And that word ``revolution'' is much overworked in 
our society. But in this case, if anything, it might be an 
understatement.
    We currently have half the people who have ever lived to 
the age of 65 alive at this time, half the people who have ever 
lived to the age of 65 in the United States. And we are at a 
point where life expectancy in the last century has increased 
by three decades which is greater than all of the increases for 
the previous 5,000 years.
    The population of older adults since we started the 
National Senior Service Corps 35 years ago has doubled, and 
that number is going to double again over the coming 30 years, 
so that by 2030 between a fifth and a quarter of the entire 
country is going to be over the age of 65.
    The demographers have a phrase for that. They call it the 
Floridadation of America. A phrase----
    Senator Bayh. Say that again, Marc. By 2030 what percentage 
of the population----
    Mr. Freedman [continuing.] By 2030 between--depending on 
which predictions you believe, between 20 and 25 percent of the 
entire population.
    And now, when you think about that, 18 percent of Florida 
is over the age of 65. So the entire country will have a larger 
proportion of older adults than Florida does today. And we've 
heard a lot of hand wringing about what a great burden and cost 
that's going to be on this country.
    But I'm here, along with my colleagues and the people we 
heard from in the first panel, to suggest that the reality 
might be quite different, especially if we play our cards 
right, that this population is really our country's only 
increasing natural resource.
    And you talked before about--in asking Alan Solomont about 
what the benefits are. The Foster Grandparent Program has a 
great expression. They say, ``Every dollar spent twice.'' And 
when we think about not just what the older adults themselves 
get out of it, but what the young people like Caleb who are 
receiving the service get out of it, but also what the broader 
society gets out of closer ties between the generations and a 
sense of community where everybody feels like they have a part, 
it's truly an extraordinary opportunity.
    And not only do we have great numbers of people coming down 
the road, but people who are healthier, better educated, in 
better shape economically than ever before.
    When the Foster Grandparent Program was started, 35.8 
percent of the older population was living in poverty. Today 
that number is hovering between 10 and 12 percent.
     People are healthier than they've ever been before in 
later life. The Los Angeles Times just did a survey which 
showed that Americans over the age of 60 feel 19 years younger 
than their chronological age. So essentially a 60 year old of 
today is like a 40 year old of the generation past. And this is 
a population which is poised to give back, that wants to give 
back.
    The survey that Alan Solomont mentioned, we discovered that 
giving back through national service, through volunteerism, 
through paid employment that has a socially redeeming component 
was a top priority for the current and coming generation of 
retirees.
    So this really is an extraordinary resource, but I'm a 
little chagrined to have to say that it's probably not only our 
only increasing natural resource, but our greatest squandered 
national treasure. We are not making great use of the talent 
and energy and civic commitment in this segment of the 
population.
    For years we really basically told people to go to the 
sidelines, that they're no longer valued, that we don't need 
what they have to offer, and that's been a tragic mistake. And 
no more so with the current population which is the best 
educated population of older adults we've ever seen, four times 
the level of college education than just a generation back.
    The social scientists talk about structural lag. They say 
basically that populations change their talents, their energy, 
their well-being, but we don't have the kind of images and 
opportunities that go with that.
    And I think that just the timing of looking at the National 
Senior Service Corps legislation couldn't be a better 
opportunity to rethink that gap and find a way to close it.
    This is our greatest, largest, most impressive national 
effort to remedy that situation and put the talents of older 
adults to use. It's a program that has increased from a few 
hundred people in 1965, to over half a million people.
    And yet now on the verge of this demographic revolution, 
it's a good time to step back and see how these programs can be 
brought up to date and put in a position so they're going to 
best serve the coming generation of older adults. And the 
recommendations you set out earlier I think are exactly the 
ones that we're going to need.
    And this opportunity to step back and look rationally at 
the programs is needed from another perspective as well. When 
writing Prime Time, I got a chance to look at the history of 
the National Senior Service Corps. And while there were many 
good intentions in the early days, there was also a big role 
for accident.
    One of the great stories, LBJ, when he announced the 
formation of the Foster Grandparent Program in 1965, he did it 
on the day of his 58th birthday. And in the speech in which he 
was extolling the great wonders of the older population and how 
much they had to offer, the age of the program had been set at 
55 back then. He changed it to 60 in every place because he 
didn't want to be considered an older adult himself, and he was 
particularly sensitive because he had no grandchildren at the 
time, and he was announcing the Foster Grandparent Program.
    So there are many ways where a good look at what we're 
going to need in the future will help.
    But I want to close by just saying that along with 
expanding and strengthening the existing opportunities that are 
out there, we need to create more options for people. This is 
an extremely diverse population of older adults with 
extraordinary skills ranging from those we heard with Judge 
Brewer, and we need to create a range of opportunities so that 
people will have choices where they can put into action their 
great skills.
    And I think that there's a chance now to invest in a lot of 
grass roots activity, much of it happening in Indiana. There's 
a great program in Columbus called Volunteers in Medicine where 
retired doctors and nurses are coming together to provide free 
healthcare to the poor, many other examples of that.
    And I think a fund for innovation would go a long way 
toward widening those kinds of opportunities. And making it--
we've heard from a lot of critics of the aging America that 
graying means paying. But I think the graying of America could 
be a great payoff.
    And we could finally redeem the promise that JFK gave us in 
the very first White House Conference on Aging in 1960 when he 
said, ``We've added years to life, now it's time to add life to 
those years.'' And I think if we do that, we'll not only enrich 
the lives of older Americans, but all generations.
    Thank you.
    Senator Bayh. Marc has touched upon a very important 
subject that frankly doesn't get as much attention in 
Washington as it deserves. You look at the great challenges 
that face our country today. We have the globalization of the 
economy where we're not just competing with each other in this 
country or our immediate neighbors, but are competing with 
nations around the world.
    We have the technology revolution with information 
technology, telecommunications that has changed the way we 
live, we work, and we recreate.
    But of all the different changes we face, probably the 
demographic challenge may be the most profound of all. And 
we're really not devoting the attention to that that we need.
    We have a debate about what to do about Social Security and 
Medicare, but that's a fairly narrow debate. And I think the 
point that Marc made about looking at our seniors not as a 
burden or a problem to be managed, but instead as a resource 
that can participate in improving the productivity of society 
and thereby helping us to meet those challenges is a very good 
one.
    We ought to look at this in more of a positive light 
instead of a negative, the negative light in which it is all 
too often presented.
    And you're right. We're squandering the resource currently. 
I'd like to follow up on your comment about innovation. The 
Experience Corps I understand is an innovative program.
    Mr. Freedman. Yes.
    Senator Bayh. And can you build upon that a little bit and 
tell us what role can the Federal Government play in fostering 
innovation in terms of senior volunteerism?
    Mr. Freedman. Well, the Experience Corps Program--actually, 
Judge Web Brewer is part of the Experience Corps here in 
Indianapolis which is run through Big Brothers Program--is now 
in seventeen cities. And it exists for one reason, because 
there was a small pot of money within the National Senior 
Service Corps for demonstration projects.
    And beginning in 1995, that money went into creating the 
Experience Corps. And we focused entirely on low income inner 
city elementary schools because we've heard so much about this 
coming generation was that the generations of older adults are 
taking the younger generation to the cleaners. We wanted to 
show a very different image, how the generations could support 
each other.
    And Experience Corps is focusing on creating a caring, 
humane environment where lots of one-on-one personal attention 
exists for young people in inner city schools in those 
seventeen cities.
    Senator Bayh. Wonderful. You know, in my introductory 
remarks I suggested one of the things we want to do is expand 
the funding available for demonstration projects like that to 
hopefully accelerate the innovation, and trying some different 
avenues to encourage seniors to participate.
    So I think that's completely consistent with what you're 
saying and what you're advocating.
    Marc, thank you for coming all the way from San Francisco. 
Alan came from Boston; you came from San--east meets west right 
here in Indianapolis, IN. So we appreciate your making the long 
trip. Thank you very much.
    And I'm glad with the heat we're having that we don't have 
the sort of energy shortage you have in California. We'd be in 
big trouble today. Thank you for coming.
    Let's give him a round of applause. [Applause.]
    Do you prefer Kenneth or Ken?
    Mr. Smith. Either.
    Senator Bayh. Either one. All right.
    Well, Kenneth, thank you for being with us. I'm looking 
forward to your perspective. And thank you for representing 
AARP here today.

     STATEMENT OF KENNETH B. SMITH, AARP BOARD OF DIRECTORS

    Mr. Smith. Thank you. On behalf of the association and my 
fellow members who are here in the audience, I want to thank 
you, Senator, and the Committee, for recognizing the valuable, 
untapped human resource that America's seniors represent to 
assist in meeting the challenges of our communities and which 
our communities face today.
    We hope that your leadership in this area, Senator, will 
increase opportunities for older Americans to contribute their 
talents and reap the satisfaction of knowing that their efforts 
are valued. Community service has been a part of AARP's vision 
since our organization was founded with the motto to serve not 
to be served.
    Today I will present an overview of some AARP volunteer 
activities, the implications for volunteerism in an aging 
society, what we understand about the change in volunteer 
experiences sought by today's over 50 population, and future 
roles and opportunities for seniors.
    AARP has traditionally been and is now engaged in 
recruiting, training, and deploying volunteers in a wide 
variety of service roles.
    For example, AARP members in over 3,000 chapters across the 
country currently play an active role in serving their 
communities. Through each chapter, an average of over 700 hours 
of service is contributed annually.
    Our National Retired Teachers Association has over 20,000 
volunteers working with 500,000 youth in 1,000 communities.
    Our AARP tax aid program offered free personal and 
confidential assistance to over 1.6 million persons last year.
    Our AARP Senior Community Service Employment Program, CSEP, 
helped low income job seekers age 55 and older to gain job 
skills and experiences that enabled them to transition into 
permanent unsubsidized jobs.
    And the AARP Public Benefits Outreach, PBO programs helps 
potential beneficiaries learn about and receive benefits 
available through such programs as the Medicare savings 
program, supplemental security income, and Medicaid, while also 
educating consumers about their money and management choices.
    AARP is proud of these continuing contributions to 
communities across the country; however, the unmet needs of 
individuals and communities in contemporary society are 
daunting.
    The challenge we all face is to increase volunteer efforts 
in ways that build on current successes without limiting the 
volunteer pool to traditional modes of service, modes that 
sometimes do not appeal to today's midlife and older 
volunteers.
    American society is changing, and so must our approaches to 
volunteer service. We believe that more can be done both in 
mobilizing seniors to serve and in generating service 
opportunities that are both rewarding and relevant. Both aims 
are important given the rapid movement of baby boomers into 
retirement and the changing demographic profile of the 
volunteer pool.
    I would note a few points in this regard. There are twice 
as many older adults today as compared to 1960, as we've 
already heard. And by the middle of the next century, America's 
elders will outnumber its children and youth for the first time 
in history.
    Today's over 50 population is the healthiest and best 
educated and wealthiest the world has ever seen, as has already 
been mentioned. They represent a tremendous untapped reservoir 
of experience and talent.
    By the end of the twentieth century, 20 to 30 years of 
productive living was added to the average lifespan. This means 
more work years without serious cognitive or physical 
limitations.
    In short, traditional volunteer experiences must be 
reevaluated for their relevance to human need and adoptability 
to achieve what appeals to a more robust senior service pool. 
We must create new roles and outlets that foster personal 
renewal and provide positive benefits for others in our 
society.
    There is evidence that service provides significant 
benefits to those prepared to serve such as structure, 
interaction, a feeling of usefulness.
    A 1998 independent sector report found that older adults 
are extremely willing to serve if they are asked. Continued 
learning and skills development eases the transition from the 
workplace to retirement and combats feelings of isolation and 
loss of purpose that can result after retirement.
    Many national organizations in America are experiencing 
changes in their volunteer force because of the mismatch 
between the service opportunities offered and those sought by 
volunteers.
    The challenges of facilitating and supporting and 
encouraging creativity in quality service experiences differ 
among national, state, and local organizations.
    Any endeavor that does not recognize and accommodate these 
differences may find itself short-lived. We must look to new 
forms of public interest work. These alternative approaches and 
roles must include activities research that indicated that 
seniors today feel about 19 years older than their 
chronological age?
    Mr. Freedman. Younger.
    Senator Bayh. Oh, I'm sorry. Nineteen years younger. Yes, I 
meant to say 19 years younger. That's a marvelous thing, and it 
I think proves the truth of what Kenneth is saying. As you 
mentioned, we're dealing with a healthier, wealthier, longer 
living senior population, and therefore we have to rethink the 
types of service opportunities available to seniors.
    Kenneth, AARP is already providing, as you've indicated, 
service opportunities in so many ways. What can the government 
do to amplify the kind of things that you're already involved 
with? Are there things that we can----
    Mr. Smith. I think encouraging. I think the very fact that 
your committee is holding a hearing like this encourages the 
organizations that do the recruiting and the training. That's 
very, very important.
    And there are other ways in which we can partner which will 
be revealed to us as we move along, but I think the 
encouragement is very important. I mean, look around here. 
You'll see the usefulness of all of these people in this room. 
And life isn't over for any of them.
    Senator Bayh. In interest of full disclosure, I think I 
should indicate to everyone that upon my being sworn into the 
U.S. Senate I received an honorary membership in the AARP.
    Mr. Smith. Good for you.
    Senator Bayh. So I'm 45, but I'm on my way, and I'll be 
there.
    Thank you very much, Ken. I appreciate your time and your 
presence here. As a matter of fact, I feel a little bit guilty. 
I should have told all of our panelists that since we're at the 
State Fair, you could have left the ties at home, but you've 
been very good in dressing up for the hearing.
    Jim, thank you for your time today. We're looking forward 
to hearing from you, and I'll be interested in hearing your 
testimony. But you've done so much work in this area, I'd first 
just like to ask you a question before you get into it.
    Does your research indicate--back up the public opinion 
data that Marc cited about people feeling significantly younger 
than their chronological age in retirement these days? That's 
great news.
    Mr. Perry. Well, the evidence certainly indicates that 
people are better off from a health perspective both physically 
and mentally, but the research does not try to translate it 
into the same chronological improvements. Individuals who have 
been involved in national senior service are healthier, both 
physically and mentally----
    Senator Bayh. Also there's a psychological effect.
    Mr. Perry [continuing.] Apparent in those individuals of 
similar age.
    Senator Bayh. Great.
    Mr. Perry. And there has been some fairly rigorous research 
that's focused on that particular individual benefit. So it is 
entirely consistent with that as well as the testimony of the 
panel that preceded ours.
    Senator Bayh. Good. Thank you. Thank you for your 
testimony. I look forward to it.

 STATEMENT OF JAMES L. PERRY, ASSOCIATE DEAN AND CHANCELLORS' 
    PROFESSOR OF PUBLIC AND ENVIRONMENTAL AFFAIRS, INDIANA 
           UNIVERSITY-PURDUE UNIVERSITY INDIANAPOLIS

    Mr. Perry. I am going to focus on something more esoteric 
than the other panelists. I have no public opinion data to 
present. But I am going to talk about some of the evaluation 
research, some of the scientific evidence, and even though it's 
esoteric, I think it's important because Congress obviously has 
to justify appropriations and decisions it makes about 
increasing support for senior programs and other national 
service programs.
    So it's important not only to have the anecdotal evidence 
which we have received in the earlier panel, but also to look 
at the scientific evidence. So I am going to do that.
    I also want to make one disclaimer--I got pushed to the end 
of the infield when I came in. I pulled up here, and they said, 
``No, you're in the wrong spot,'' so I wound up at the other 
end of the infield.
    And in the process I managed to go past one of the 
traditions here at the Indiana State Fair which I hope our 
friends from the coast have an opportunity to take in, and that 
is the world's biggest boar.
    And at the risk of joining the world's biggest boar, I'm 
going to talk about the scientific evidence. So bear with me. 
[Laughter.]
    Senator Bayh. I was under the impression he was in 
congress, Dean, so I was glad to see him out there at the hog 
barn. [Laughter.]
    Mr. Perry. Although the total volume of research about 
senior service is modest, a significant consistent body of 
evidence has accumulated about senior service since the 
founding of the Foster Grandparent Program service in 1965.
    In my written testimony, I have appended a bibliography of 
more than 35 evaluation studies that have been done over the 
last 30 years. Permit me to summarize a few of those results. I 
would also be happy to elaborate later during the question and 
answer session.
    In the assessments of national and senior service, a good 
deal of attention has been given to how service benefits the 
individual server. One if the examples is Senator Bayh's 
question about the health and the individual consequences.
    Less attention, particularly for senior programs has been 
given to what service means to the beneficiaries of service and 
to the larger community. Let me illustrate some of the ways in 
which senior service has made an impact in the areas of both 
the beneficiaries as well as the community.
    One of the program venues for senior service is Head Start, 
the early childhood education program. In a 1997 study of what 
foster grandparents do in Head Start programs, researchers from 
Westat Corporation looked at education outcomes.
    They conducted intensive observations of foster 
grandparents in six programs, in six classrooms. In effective 
classrooms, they observed foster grandparents engage in a range 
of positive interactions with children over the course of the 
day, including listening attentively and acknowledging their 
progress and accomplishments.
    The foster grandparents helped to develop and reinforce 
prosocial behaviors through modeling, encouraging children to 
try new activities, and acknowledging individual contributions 
to group activities.
    Foster grandparents also help children make productive 
choices and redirect misbehavior by providing children with 
constructive guidance and feedback.
    The researchers concluded that the caregiver behavior has 
contributed to positive developmental outcomes for children in 
four areas, (1), emotional well-being; (2), social and 
behavioral skills development; (3), language development, and 
(4), cognitive development.
    Now that's, again, fairly esoteric scientific language, but 
again, I think it relates very closely to the example we had 
earlier from Grandma Jo and Caleb about what happens in the 
interaction between the tutor and the person doing the reading 
and the young person who is the beneficiary of that service.
    Another example of the impacts on beneficiaries comes from 
Seniors for Schools which is an initiative for the Corporation 
for National Service as part of the America Reads Challenge. It 
sought to recruit adults over age 55 to help children read 
independently by the end of the third grade.
    Sites in nine States participated in the first 2 years of 
the program. Each of the nine sites conducted local evaluations 
using standardized and nonstandardized reading skills tests.
    Project Star, the evaluator for the project, synthesized 
results from the nine studies. They found that 88 percent of 
the students improved their reading skills during the 1998-1999 
project year. Sixty-nine percent of the tutored students whose 
grade level change was measured recorded an increase of one 
full grade or more.
    There are not only benefits for the individuals targeted by 
service, but there are also benefits for what might be called 
indirect beneficiaries. Again, Seniors for Schools is one 
example. Its primary emphasis is student outcomes, especially 
reading and literacy.
    But in the course of trying to achieve those outcomes, 
seniors also worked with parents and families. Each of the four 
Seniors for Schools sites sought to involve parents in the 
schools. Sites also developed activities to promote literacy 
enhancement in the home.
    The reported result was that parents took a more active 
role in the schools and were better prepared to support their 
child's development. So the impacts are not only tutor to the 
child, but also tutor to the larger social network that 
supports the child in his or her learning.
    The benefits of senior service have also been found to go 
beyond the direct and indirect beneficiaries to organizations 
and communities. Senior service has been found to produce 
community-wide impacts.
    A common benefit is that senior service permits 
organizations to expand service. For example, several studies 
have included that the Senior Companion Program has helped 
local service providers increase the services they provide.
    Another impact of senior service is volunteer leveraging. 
This refers to the extent to which senior service participants 
are able to involve other volunteers. One of the best ways for 
senior service participants to enhance a civic ethic lies in 
their potential to engage other citizens in voluntary activity. 
The research provides many examples of how national service 
participants leverage other volunteers.
    This brief summary of the research about senior service 
shows a broad range of positive effects. The positive results 
reach direct and indirect beneficiaries, organizations, and 
communities, and they are only part of the systematic research 
that has been conducted on senior service.
    [The prepared statement of Mr. Perry follows:]

    [GRAPHIC] [TIFF OMITTED] T5462.009
    
    [GRAPHIC] [TIFF OMITTED] T5462.010
    
    [GRAPHIC] [TIFF OMITTED] T5462.011
    
    [GRAPHIC] [TIFF OMITTED] T5462.012
    
    [GRAPHIC] [TIFF OMITTED] T5462.013
    
    [GRAPHIC] [TIFF OMITTED] T5462.014
    
    [GRAPHIC] [TIFF OMITTED] T5462.015
    
    [GRAPHIC] [TIFF OMITTED] T5462.016
    
    [GRAPHIC] [TIFF OMITTED] T5462.017
    
    [GRAPHIC] [TIFF OMITTED] T5462.018
    
    [GRAPHIC] [TIFF OMITTED] T5462.019
    
    Senator Bayh. Let's thank Dean Perry for his testimony.
    Dean, it seems to me that the essence of your testimony 
here today is that service can be considered a win-win-win 
investment for society. It's good for seniors with the health 
and the psychological effect; it's good for the direct 
beneficiaries, Caleb, the Head Start students you mentioned, 
others, and it's good for society in a broader sense, and in 
that sense, the taxpayers because we're getting the benefits to 
the broader public.
    Is that a good summary of your testimony?
    Mr. Perry. I think it's an excellent summary.
    I think one of the reasons the senior programs have been 
highly successful is they have been highly focused. Senior 
programs, particularly the Foster Grandparent and Senior 
Companion Program, benefit the caregiver by providing some 
income and support, some meaningful activity. They also benefit 
the beneficiaries.
    In recent years the Corporation for National Service has 
focused on an idea they call programming for impact which says 
that the benefits ought to go not only to the senior who is a 
participant in the senior programs, but it also ought to go to 
the individuals who are the recipients of service, whether they 
be other seniors or young people in reading programs or in 
other service delivery contexts.
    Senator Bayh. Well, for the benefit of our out-of-town 
guests, Alan, Marc, and others, I, Dean, would just like to say 
how proud I am that someone who's devoting such thought and 
research to this important subject resides right here in 
Indiana. So we're very proud to have you on the panel today.
    Mr. Perry. Thanks.
    Mr. Smith. I think what I've heard from my fellow panelists 
demonstrates that we don't live by bread alone. We live by 
giving of ourselves. And when that ends, purposefulness in 
living ends.
    Senator Bayh. Very well said, Ken. Very well said.
    I'd like to thank the members of our second panel for their 
testimony today. I believe that the members of the first panel 
have also remained with us.
    And, Geneva, we've reached that part of the hearing. We're 
winding down. We don't want to keep everyone all afternoon, but 
we're winding down now. But we're going to have a couple of 
questions from members of the audience for our panelists.
    I, ladies and gentlemen, will stay around after the hearing 
is over down in front if you have questions for me. And for 
those of you who submitted questions in writing that we don't 
get to, we will definitely answer you by mail. I don't want you 
to think you've been forgotten.
    But, Geneva, why don't you have the questions for our 
panelists.
    Ms. Shedd. OK. Great. Thank you very much. And thank you 
for holding your U.S. Senate Field Hearing right here in 
Indiana again this year. We really appreciate this opportunity.
    The first question is for Rose, Rose Thurman of the first 
panel, and the questions is, ``How did you find out about the 
Senior Companion Program? How did it help you in your specific 
situation?''
    As Rose is coming forward, ``Rose, how did you find out 
about the Senior Companion Program? How did it help you in your 
specific situation?''
    Ms. Thurman. I found out about the Senior Companion through 
my daughter, Bobbi Brown. She was a social worker for the 
welfare, and she got me into it. And I have really enjoyed. 
Please keep it going.
    Ms. Shedd. Thank you, Rose.
    The next one is for Marc Freedman and Kenneth Smith. And it 
is, ``Due to my mother's health, she must spend the majority of 
her time inside her home. How can she volunteer?''
    Mr. Smith. You can volunteer in a variety of ways, and 
sometimes you can do it by the phone. Calling somebody every 
day who's shut in is a form of volunteering. And someone who is 
shut in at home can do that.
    Mr. Freedman. I was going to say the same thing. Telephone 
reassurance programs are all over the country and are 
enormously beneficial for both sides.
    Ms. Shedd. OK. Thank you. I believe because of the time 
that's the number that we can ask, and that I'm going to turn 
it back to you.
    Senator Bayh. Oh, Geneva, ask one more.
    Ms. Shedd. OK. ``I would like to volunteer. I do not know 
where to start. Where can I go to learn about volunteer 
opportunities in my community?'' And that's for Marilyn Morin 
from panel one.
    Senator Bayh. If I could say just one thing first, don't 
forget our 1-800 number which will provide information. It's a 
national toll-free number. We can provide information that way.
    Would any of our other panelists like to--yes.
    Mr. Perry. The Points of Light Foundation. I don't know 
whether that's the same number. I don't think it is. It's 1-
800-VOLUNTEER. And it will connect you with volunteer 
opportunities in your communities.
    Points of Light is one of the recipients of support from 
the Corporation for National Service and a partner in national 
and voluntary service. But 1-800-VOLUNTEER is another avenue.
    Ms. Shedd. OK, Marilyn, did you want to say something about 
that? And the number is 1-800--for the volunteer number up here 
is 1-800-424-8867.
    Ms. Morin. I agree. The 1-800 number is the best way. But 
if you are in Columbus, our numbers are Aging and Community 
Services. Also in the State of Indiana and nationwide, there 
are area agencies. The Triple A's all have volunteer 
opportunities. Thank you.
    Senator Bayh. Thank you.
    Again, I am going to be standing down in front for anyone 
who wants to ask me questions when we're done. The others we 
will all answer by mail. You will receive a response to your 
question.
    I'd like to thank the members of both panels again for 
joining with us today. Let's give them another round of 
applause.
    Senator Bayh. I'd like to thank everyone from the area 
agencies on aging. Anyone here from the area agencies on aging 
today? Raise you hand. I'd like to thank all of you for your 
help that you provide.
    Les Lenkowsky, again, Les, you've been so good. We're 
looking forward to working with you.
    State Director Bill Stinson who is not with us but provided 
much, much help, and everyone from the State fair.
    Tom Haskett, the Indiana Senior Service Director. Tom, 
thanks--raise your hand. This good man is doing a lot of great 
work here. Tom Haskett, thank you.
    And last, but by no means least, I'd like to thank the 
Chairman of the Committee on Aging, Senator Breaux and the 
ranking member Senator Craig. They give me one field hearing a 
year to conduct, and I'm grateful for them allowing us to have 
it here at the Indiana State Fair. And I know I speak for them 
when I say I think this has been our third consecutive 
successful hearing.
    Thank you all again very, very much for your presence 
today.
    This hearing of the Special Committee on Aging is now 
adjourned.
    [Whereupon, at 3:42 p.m., the hearing was adjourned.]


</pre></body></html>
